                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 107110046                                                                      Page 1 of 1



         The OIG investigation found that a university employee I fraudulently supplemented her
         university salary by abusing her association with a university vendor that provided services to the
         university in connection with NSF awards. The employee, in her capacity as a consultant2
         employed part-time by the university vendor, apparently submitted fraudulent invoices through
         the vendor to the university for consultant work on an NSF award 3 in 2002 and 2003 that she
         never actually performed.

         The university paid the invoices because the employee, while performing duties at the university
         related to the award, authorized the university's Accounts Payable Office to pay the consulting
         company for the false invoices. After being paid by the university, the consulting company paid
         the employee. The fraudulent invoices charged to the NSF amounted to $8,995.21, and with
         overhead totaled $13,890.90. The investigation did not find evidence that the consulting
         company was aware of the employee's fraud.

         An Assistant United States Attorney from the Central District of California declined criminal
         prosecution due to insufficient evidence. The university terminated the employee due to the
         financial irregularities associated with the federal grant. The university accepted fiduciary
         responsibility, refunded $13,890.90 to NSF, and took corrective actions to help prevent fraud in
         future grants.

         Accordingly this investigation is closed.




         2




NSF OIG Form 2 (11102)
